<html>
<title> - THE SECTION 8 SAVINGS ACT OF 2011: PROPOSALS TO PROMOTE ECONOMIC INDEPENDENCE FOR ASSISTED FAMILIES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                   THE SECTION 8 SAVINGS ACT OF 2011:
                     PROPOSALS TO PROMOTE ECONOMIC
                   INDEPENDENCE FOR ASSISTED FAMILIES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         INSURANCE, HOUSING AND
                         COMMUNITY OPPORTUNITY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 13, 2011

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 112-74





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
72-615 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                   SPENCER BACHUS, Alabama, Chairman

JEB HENSARLING, Texas, Vice          BARNEY FRANK, Massachusetts, 
    Chairman                             Ranking Member
PETER T. KING, New York              MAXINE WATERS, California
EDWARD R. ROYCE, California          CAROLYN B. MALONEY, New York
FRANK D. LUCAS, Oklahoma             LUIS V. GUTIERREZ, Illinois
RON PAUL, Texas                      NYDIA M. VELAZQUEZ, New York
DONALD A. MANZULLO, Illinois         MELVIN L. WATT, North Carolina
WALTER B. JONES, North Carolina      GARY L. ACKERMAN, New York
JUDY BIGGERT, Illinois               BRAD SHERMAN, California
GARY G. MILLER, California           GREGORY W. MEEKS, New York
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
SCOTT GARRETT, New Jersey            RUBEN HINOJOSA, Texas
RANDY NEUGEBAUER, Texas              WM. LACY CLAY, Missouri
PATRICK T. McHENRY, North Carolina   CAROLYN McCARTHY, New York
JOHN CAMPBELL, California            JOE BACA, California
MICHELE BACHMANN, Minnesota          STEPHEN F. LYNCH, Massachusetts
THADDEUS G. McCOTTER, Michigan       BRAD MILLER, North Carolina
KEVIN McCARTHY, California           DAVID SCOTT, Georgia
STEVAN PEARCE, New Mexico            AL GREEN, Texas
BILL POSEY, Florida                  EMANUEL CLEAVER, Missouri
MICHAEL G. FITZPATRICK,              GWEN MOORE, Wisconsin
    Pennsylvania                     KEITH ELLISON, Minnesota
LYNN A. WESTMORELAND, Georgia        ED PERLMUTTER, Colorado
BLAINE LUETKEMEYER, Missouri         JOE DONNELLY, Indiana
BILL HUIZENGA, Michigan              ANDRE CARSON, Indiana
SEAN P. DUFFY, Wisconsin             JAMES A. HIMES, Connecticut
NAN A. S. HAYWORTH, New York         GARY C. PETERS, Michigan
JAMES B. RENACCI, Ohio               JOHN C. CARNEY, Jr., Delaware
ROBERT HURT, Virginia
ROBERT J. DOLD, Illinois
DAVID SCHWEIKERT, Arizona
MICHAEL G. GRIMM, New York
FRANCISCO ``QUICO'' CANSECO, Texas
STEVE STIVERS, Ohio
STEPHEN LEE FINCHER, Tennessee

                   Larry C. Lavender, Chief of Staff
      Subcommittee on Insurance, Housing and Community Opportunity

                    JUDY BIGGERT, Illinois, Chairman

ROBERT HURT, Virginia, Vice          LUIS V. GUTIERREZ, Illinois, 
    Chairman                             Ranking Member
GARY G. MILLER, California           MAXINE WATERS, California
SHELLEY MOORE CAPITO, West Virginia  NYDIA M. VELAZQUEZ, New York
SCOTT GARRETT, New Jersey            EMANUEL CLEAVER, Missouri
PATRICK T. McHENRY, North Carolina   WM. LACY CLAY, Missouri
LYNN A. WESTMORELAND, Georgia        MELVIN L. WATT, North Carolina
SEAN P. DUFFY, Wisconsin             BRAD SHERMAN, California
ROBERT J. DOLD, Illinois             MICHAEL E. CAPUANO, Massachusetts
STEVE STIVERS, Ohio











                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    October 13, 2011.............................................     1
Appendix:
    October 13, 2011.............................................    33

                               WITNESSES
                       Thursday, October 13, 2011

Boldon, Hope C., President and Chief Operating Officer, Human 
  Development Division, The Integral Group LLC...................     8
Fischer, Will, Senior Policy Analyst, Center on Budget and Policy 
  Priorities.....................................................    13
Russ, Gregory P., Executive Director and Chief Operating Officer, 
  Cambridge Housing Authority....................................    15
Warren, Kris, Chief Operating Officer, Chicago Housing Authority.    11
Woods, Larry C., Chief Executive Officer, Housing Authority of 
  Winston-Salem..................................................    10

                                APPENDIX

Prepared statements:
    Boldon, Hope C...............................................    34
    Fischer, Will................................................    72
    Russ, Gregory P..............................................    86
    Warren, Kris.................................................    90
    Woods, Larry C...............................................   100

              Additional Material Submitted for the Record

Biggert, Hon. Judy:
    Written statement of the Council of Large Public Housing 
      Authorities (CLPHA)........................................   107
    Written statement of the Columbus Metropolitan Housing 
      Authority (CMHA)...........................................   117
    Letter from a coalition of housing industries................   123
    Letter from HUD Secretary Shaun Donovan, dated October 11, 
      2011.......................................................   124
    HUD Report to Congress entitled, ``Moving to Work: Interim 
      Policy Applications and the Future of the Demonstration,'' 
      dated August 2010..........................................   126
    Written statement of the National Affordable Housing 
      Management Association (NAHMA).............................   199
    Written statement of the National Multi Housing Council 
      (NMHC) and the National Apartment Association (NAA)........   207
    Written statement of the Public Housing Authorities Directors 
      Association (PHADA)........................................   209
    Written statement of the Riverside County Board of 
      Supervisors................................................   214
Gutierrez, Hon. Luis:
    Written statement of the National Low Income Housing 
      Coalition (NLIHC)..........................................   215

 
                   THE SECTION 8 SAVINGS ACT OF 2011:
                     PROPOSALS TO PROMOTE ECONOMIC
                   INDEPENDENCE FOR ASSISTED FAMILIES

                              ----------                              


                       Thursday, October 13, 2011

             U.S. House of Representatives,
                 Subcommittee on Insurance, Housing
                         and Community Opportunity,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:20 p.m., in 
room 2128, Rayburn House Office Building, Hon. Judy Biggert 
[chairwoman of the subcommittee] presiding.
    Members present: Representatives Biggert, Hurt, Miller of 
California, Capito, Westmoreland, Dold, Stivers; Gutierrez, 
Waters, Watt, Sherman, and Capuano.
    Also present: Representatives Chabot and Al Green of Texas.
    Chairwoman Biggert. This hearing of the Subcommittee on 
Insurance, Housing and Community Opportunity will come to 
order. We will begin with our opening statements, and I will 
recognize myself for 4 minutes.
    Good afternoon, and welcome to today's hearing, the second 
in a series to examine proposals to reform HUD's Housing Choice 
Voucher Program, or Section 8. As I mentioned during our first 
hearing, over the last decade, the Section 8 Program's costs 
have grown by almost 80 percent and consume over 61 percent of 
HUD's budget. In 2002, Section 8 appropriations were $15.6 
billion, and in Fiscal Year 2011, they amounted to $27.6 
billion. This rate of growth is unsustainable. The draft 
legislation that we will examine today aims to address these 
escalating costs.
    In addition, for many years we have heard about the long 
waiting lists, hundreds of thousands of individuals and 
families simply having their name on a list and never receiving 
a dime of housing assistance. Thus by cutting red tape, 
enhancing the delivery of housing assistance, and promoting 
economic independence, today's proposals aim to help public 
housing authorities and communities across the country to 
improve services to the people currently receiving assistance 
and ultimately serve more people.
    For too long, both HUD and Congress have allowed assisted 
housing to continue in a form deemed good enough, the results 
of which are clear to see in ever-impoverished neighborhoods 
across our country. The Section 8 Program has its results: 
never-ending, indeed, hopelessness and despair.
    In my opinion, the Section 8 culture of ``good enough'' is 
not good enough. We can and we must do better. Today, we 
welcome a number of witnesses who will highlight creative 
solutions that their communities have implemented to achieve 
the goals of better serving people in need and maximizing the 
impact of taxpayer dollars dedicated to the Section 8 Program. 
They represent organizations that have cut red tape, improved 
services, and are willing to work to help people stand up on 
their own two feet so that others who are standing in line can 
also be served.
    One of today's witnesses, Ms. Warren, will discuss many of 
the successes that have been achieved in Chicago, Ranking 
Member Gutierrez's and my hometown. Families in Chicago are 
succeeding in breaking the cycle of generational poverty. We 
will hear about the positive citywide impact of Chicago's 
redevelopment efforts. Gone are the days of Cabrini-Green.
    Our goal for Section 8 reform is to provide more than just 
a roof over the heads of struggling families. A modern, 
efficient, effective Section 8 Program should give local 
housing authorities the flexibility they need to help 
recipients get back on the path to self-sufficiency. By linking 
rental assistance with new opportunities for job training, 
employment, financial literacy, and education, we can help more 
families achieve economic independence. Today's hearing will 
shed light on how Congress, HUD, local public housing 
authorities, and communities can improve the Section 8 Program 
to do a better job of helping individuals and families in need.
    I would also like to note for the members of the 
subcommittee from both sides of the aisle that similar to our 
effort earlier this year to shape reforms to the National Flood 
Insurance Program, as we continue to draft Section 8 reform 
measures, I welcome your concerns, your ideas, and your 
participation in this process.
    With that, I recognize Ranking Member Gutierrez for his 
opening statement.
    Mr. Gutierrez. Good afternoon. I want to thank the 
gentlelady from Illinois, my friend and my colleague, and of 
course, the chairwoman of the subcommittee, for holding this 
hearing and for keeping housing voucher reform on the agenda. I 
would also like to welcome our witnesses and thank them for 
being here today as we discuss the newest draft of the Section 
8 Savings Act, or SESA.
    SESA represents a lot of effort from both sides of the 
aisle. We all understand how important this issue is, and we 
continue to hear from public housing authorities, tenant 
groups, policy experts, and HUD, all of whom want us to enact 
commonsense improvements to Section 8 that will save money and 
help agencies be more efficient and effective in serving 
families in need.
    Like previous versions, the newest draft contains some 
important provisions on which we can all agree. These 
provisions streamline inspection requirements, simplify rent 
rules and economic calculations, and expand family self-
sufficiency Programs. They give public housing authorities more 
needed flexibility to meet the needs of their communities in 
the face of funding cuts.
    I have concerns about some provisions in the new bill that 
I believe would undermine these vital reform efforts. The draft 
includes a higher minimum rent that could lead to increases in 
homelessness by pricing out the lowest-income families. The 
proposal also ties many of the much-needed reforms to a new 
self-sufficiency demonstration that comes with a real cost to 
the agencies. I believe there are better ways to encourage 
voucher recipients to work and save.
    I also have to voice my serious concerns about the second 
bill for discussion, which proposes a massive expansion of 
Moving to Work demonstration Programs and makes it permanent. 
Although some public housing authorities, including a few 
represented here today, have been able to claim success under 
MTW, there is little evidence to justify a wholesale expansion.
    The design of MTW demands that we take a good look at this 
Program. As it currently exists, it does not require the 
necessary assessments and reviews to establish the Program's 
impact. For example, in some cases it seems that fewer families 
are served and the allowed flexibility has made it harder for 
extremely low-income families to get housing assistance of any 
kind. This is exactly what effective reform should prevent. 
Furthermore, there is reason to doubt HUD's capacity to manage 
a large-scale expansion of MTW, especially if no additional 
funds are authorized. The risks of this proposal far outweigh 
the potential rewards. Again, there is reason to doubt HUD's 
capacity to manage large-scale expansion, especially with no 
additional funds authorized.
    The Section 8 Savings Act contains many provisions that we 
can agree on. I hope that we can focus on those points of 
agreement instead of dwelling on the issues that divide us. We 
have an opportunity here, and I hope we take it. Our 
constituents deserve no less.
    I want to thank my friend, Chairwoman Biggert, and I look 
forward to hearing all of the testimony today, and I would also 
like to enter into the record a statement from the National Low 
Income Housing Coalition.
    Chairwoman Biggert. Without objection, it is so ordered.
    Mr. Gutierrez. I thank the gentlelady.
    Chairwoman Biggert. Thank you, Mr. Gutierrez.
    I ask unanimous consent that Representative Chabot of Ohio 
be allowed to be seated and to participate with the 
subcommittee at today's hearing. So ordered.
    The Chair recognizes Mr. Miller of California for 3 
minutes.
    Mr. Miller of California. Thank you. I would like to thank 
the chairwoman for convening this hearing today on the Section 
8 Program.
    In addition to the Section 8 Savings Act discussion draft, 
the hearing includes consideration of a discussion draft of the 
bill I plan to sponsor on the Moving to Work Program. In 
general, this bill would make the Moving to Work Program 
permanent, remove the cap on the number of agencies that can 
participate, improve reporting requirements so HUD can 
effectively evaluate the PHA Program, and increase protective 
measures for assisted families.
    During the drafting process of this bill, I heard concerns 
regarding resident protection and incidents of management 
misconduct that have drawn some attention away from the great 
work so many of the MTW agencies have done. I acknowledge it is 
impossible to entirely prevent misconduct, or management or 
mistreatment of a resident at any PHA, whether an MTW agency or 
not. We must do our best to prevent it on a systematic level. 
To address this valid concern, my bill includes provisions to 
protect residents and hold management accountable for their 
performance without losing the flexibility that allows MTW 
agencies to be at the forefront of innovation.
    For far too long, we have accepted the notion that 
compassion in housing assistance was defined by the amount of 
dollars spent and not by the manner in which assistance is 
provided. At this time of considerable budget constraints, it 
makes sense to give PHAs flexibility to help them improve the 
quality and effectiveness of their Programs without increasing 
costs. The MTW Program allows PHAs to have the flexibility they 
need to be innovative in serving residents and helping them 
become employed and economically independent.
    Last year, HUD released a report about the Program and 
found that the agencies with the MTW designation are 
encouraging economic independence through rent reforms and 
services, while reducing costs without negatively impacting the 
residents. Specifically, the report states that, ``MTW agencies 
have actually served substantially more families than they 
would have been able to serve without MTW by streamlining 
operations and using accumulated funds to administer new 
assisted housing units.''
    There are currently 33 PHAs of the Moving to Work 
designation out of over 3,000 MTWs. That is over 1 percent of 
the housing authorities in the United States. It is time for 
Congress to remove the arbitrary cap on this successful 
Program. Any bill our subcommittee passes on Section 8 reform 
must include an expansion of the Moving to Work Program.
    I am grateful that the chairwoman included my discussion 
draft in today's hearing, and I look forward to working with 
her to include it in the broader Section 8 reform bill, and I 
really look forward to hearing the panel today and the 
witnesses. You have expertise we are really looking forward to 
hearing, and I just support you in all you are doing. Whether 
you are a PHA or an MTW, it doesn't matter, you all are doing a 
great job. Thank you, I yield back.
    Chairwoman Biggert. The gentleman from North Carolina, Mr. 
Watt, is recognized for such time as he may consume.
    Mr. Watt. Thank you, Madam Chairwoman, for that generous 
recognition. As much time as I may consume, that is pretty 
generous.
    Chairwoman Biggert. Within 7 minutes.
    Mr. Watt. Oh, up to 7 minutes, okay. I thought there had to 
be some catch to this.
    I appreciate the gentlelady yielding me time, and I 
appreciate the hearing. I am not going to comment on the bill 
itself, the proposal, but I did want to go out of my way to be 
here to welcome one of my outstanding housing authority 
directors, Mr. Larry Woods, who is one of the witnesses today. 
He is one of a number of very outstanding housing authority 
directors in my congressional district in Winston-Salem, in 
Greensboro, in Salisbury, in Charlotte, in High Point, and a 
couple of smaller ones in Davidson County, North Carolina, who 
have really done outstanding jobs trying to professionalize the 
housing authorities. Sometimes that has worked very well, and 
sometimes it has worked to their disadvantage, because over the 
last few years, as the chairwoman knows, there has been a 
strong move to make housing authorities be more self-
sufficient. And, in fact, the Winston-Salem Housing Authority 
is one of those housing authorities that has used that 
flexibility to become more self-sufficient, and built up 
substantial reserves only to have our institution now saying to 
them, we are going to take back those reserves that you have 
built up over time, using the business model that you all have 
been pushing over all this time.
    It does not provide the kind of incentive for these housing 
authorities to do what you all ask them to do, to be innovative 
and entrepreneurial, if as soon as they innovate and 
entrepreneur and build up reserves, following that process, the 
appropriators in our institutions say, we have a budget crisis, 
and therefore we are going to take your reserves that you have 
built up over time using this entrepreneurial approach and use 
them to balance the Federal Government's budget.
    So I wanted to put that on the table. It is a concern that 
a number of my housing authorities have expressed, in 
particular the Winston-Salem authority. I am sure he is not 
here to testify about that today, but I am not as constricted 
as he is or might be in the things I can comment on, especially 
since you yielded as much time as I may consume.
    So in the area of innovation, with respect to moving people 
to work, our housing authorities have also been very 
innovative, but I would encourage the Chair and the members of 
the committee who invited Mr. Woods as a witness to be here to 
listen carefully to what he is saying in his testimony, because 
the notion that this bill would move us more toward a one-size-
fits-all approach with a set of regulations that constrict 
local housing authorities to really innovate and partner with 
social services organizations in their communities--listen 
carefully to what his testimony is saying. If you constrict 
that, he is going to tell you pretty clearly, I am not a social 
worker, I am not--I am in the housing authority business, and 
you can't expect the housing authorities to solve all of the 
problems and put everybody to work doing a bunch of things.
    So I don't want you to miss the point that you invited the 
witnesses here to try to advance the cause of moving this bill, 
because while the concept of moving people to work is 
absolutely something that we support and not making them 
permanent public housing residents, the method by which that is 
done can vary from community to community, and to set up a 
bunch of rules in a piece of legislation that makes it 
impossible for communities to really take advantage of 
community partnerships or social services departments, the 
Urban League, some of the partners that Mr. Woods has partnered 
with in the community to accomplish that, I think you might be 
tempted to miss the point.
    So I appreciate the gentlelady yielding me a generous 
amount of time, and I appreciate the gentlelady having the 
hearing. Unfortunately, I have a Judiciary Committee markup 
that I have to be in, so I may miss the testimony, but I didn't 
want to miss the opportunity to welcome Mr. Woods in 
particular, and all of the witnesses, and to make the points 
that you so generously gave me time to make.
    I yield back, Madam Chairwoman.
    Chairwoman Biggert. Thank you.
    And I might just say that on your first point, we really 
need to look to the appropriators, and that is really not this 
committee, because I would agree with you as far as what is 
happening.
    On the second point, I think if you look at the 
legislation, we really--the thing that we are trying to do is 
have more flexibility and to have more local partnerships and 
coalitions, so I think that you will be pleasantly surprised to 
see that really is in the legislation.
    Thank you for being here.
    With that, I recognize Mr. Westmoreland for 1\1/2\ minutes. 
I can't be as generous on this side.
    Mr. Westmoreland. I want to thank the chairwoman for 
yielding and for holding this hearing.
    Every year, the Section 8 Program consumes a larger share 
of HUD's annual budget. For 2011, Section 8 Programs consumed 
61 percent of HUD's budget. This is unacceptable. The committee 
and HUD must get serious about structural reforms to both 
Section 8 and HUD.
    I applaud the chairwoman and her staff for working 
diligently on the discussion draft. It is much improved from 
prior versions and focuses on moving public housing authorities 
in the Section 8 Program to do more with less by leveraging 
public/private partnerships to serve the community.
    I also want to thank Mrs. Hope Boldon for testifying today. 
Mrs. Boldon, I appreciate your drive and all your commitment to 
all Georgians in what you do. Your work with the Atlanta 
Housing Authority is a model for large metropolitan areas to 
integrate their services to the community, and I thank you for 
that.
    Importantly, the Section 8 bill being discussed today is 
only the first step in what must be a larger effort to reform 
HUD itself. HUD's problems are systemic and cannot just be 
addressed on a Program-by-Program basis. For too long, HUD 
Programs have been poorly managed, and taxpayers' hard-earned 
money has been wasted. It is time for HUD to wake up and 
realize that these lapses in public confidence cannot continue.
    I look forward to hearing all the witnesses today, and, 
Madam Chairwoman, I yield back.
    Chairwoman Biggert. Thank you.
    Mr. Dold of Illinois is recognized for 1\1/2\ minutes.
    Mr. Dold. I want to thank the Chair. Thank you, Madam 
Chairwoman, for holding the hearing and giving us an 
opportunity to talk about these important issues on housing.
    I think that most Democrats and most Republicans can agree 
on several fundamental housing principles: first, we must have 
a basic safety net to help provide housing for those who cannot 
provide for themselves; second, our ultimate overall objective 
is to move as many people as possible into self-sufficiency as 
quickly as possible; third, we must carefully consider the 
viewpoints of our public housing authorities who have the 
expertise, the experience, and we must provide them the 
adequate flexibility; and finally, as with all other government 
Programs, we must ensure that we have the adequate checks and 
balances, systems and controls to ensure that transparency, 
accountability, cost-effectiveness, and ongoing improvements 
are made. We must ensure that the scarce taxpayer resources are 
used efficiently and wisely, while also minimizing and 
detecting fraud and waste. We must establish standards and 
benchmarks against which we can systematically measure the 
results and identify improvement areas for both beneficiaries 
and taxpayers.
    Failing to do these things will harm Program beneficiaries 
the most because their resources get wastefully diverted while 
taxpayers become less willing and less able to fund the 
necessary Programs. I think this discussion draft moves us a 
long way towards those fundamental common principles, and I 
look forward to hearing from our witnesses and working with my 
Democratic colleagues and Republican colleagues to make this 
positive difference for the housing beneficiaries, service 
providers, and our taxpayers.
    I yield back.
    Chairwoman Biggert. Thank you.
    The gentleman from Virginia, our vice chairman Mr. Hurt, is 
recognized for 1 minute.
    Mr. Hurt. Thank you, Madam Chairwoman.
    I am grateful for your commitment to reforming and 
strengthening the Section 8 Voucher Program. This Program 
consumes a growing portion of HUD's annual budget, growing from 
$15 billion in 2002 up to $28.5 billion in the Administration's 
Fiscal Year 2012 budget requests, and now accounting for over 
60 percent of HUD's budget.
    With our Nation over $14 trillion in debt, the citizens of 
my district, Virginia's Fifth District, expect us in Congress 
to closely scrutinize Federal Programs, eliminate costly 
administrative inefficiencies, and enact reforms that yield 
results. The legislation our subcommittee is considering today 
will reform the Section 8 Program to better serve those who are 
in most need of assistance by promoting independence, self-
sufficiency, and prosperity for the Program's beneficiaries.
    It is my hope that the witnesses testifying before our 
subcommittee today will prove that when given sufficient 
flexibility, local housing authorities can innovate, develop 
solutions, and achieve those results. By removing bureaucratic 
red tape and burdensome regulations, we can empower these 
entities to better assist the populations that we all serve.
    Again, I want to thank the Chair for holding this hearing 
today, and I look forward to the testimony of each of you who 
have joined us today. Thank you. I yield back.
    Chairwoman Biggert. Mr. Green, do you have an opening 
statement?
    Okay, thank you.
    I would ask unanimous consent that Mr. Chabot from Ohio 
have 1 minute for an opening statement.
    Mr. Chabot. Thank you, Madam Chairwoman, and I thank you 
and the ranking member for allowing me to speak and be a part 
of this hearing. Like Mr. Watt, I also have a markup in the 
Judiciary Committee, and, in addition, I have a markup in the 
Foreign Affairs Committee as well, so I will be bouncing back 
and forth.
    The Section 8 Program, in my view, is broken, and I applaud 
this committee for taking up this important reform legislation. 
Any reform legislation we pass in this Congress must include a 
path for people to achieve self-sufficiency. A part of that 
path is enforcing--setting enforceable time limits. A Section 8 
voucher, for example, is not intended to be, and should not 
become, a permanent entitlement. Temporary assistance should be 
just that, temporary.
    We also need to ensure that this legislation protects our 
neighborhoods, holding both tenants and the owners of Section 8 
and public housing responsible for the quality and the safety 
of the buildings, the residents, and the community. Convicted 
felons, sex offenders, and illegal aliens should not be allowed 
to participate. Those who violate our local laws and ordinances 
should also be barred from eligibility.
    Lastly, we need to support efforts to expand the Moving to 
Work Program, which has been mentioned here already this 
afternoon. Our goal should be to ensure that local public 
housing authorities are accountable not to the bureaucrats in 
Washington, but to the communities they serve. I look forward 
to working with this committee to come up with more sensible 
solutions to protect our communities, and I thank you again for 
allowing me to participate.
    Chairwoman Biggert. Thank you.
    Without objection, all Members' opening statements will be 
made a part of the record.
    Now, I would like to introduce the panel of witnesses. 
Thank you so much for being here.
    We have: Mrs. Hope Boldon, president and chief operating 
officer, Human Development Division of The Integral Group LLC; 
Mr. Larry Woods, chief executive officer, Housing Authority of 
Winston-Salem; Ms. Kris Warren, chief operating officer, 
Chicago Housing Authority; Mr. Will Fischer, senior policy 
analyst, Center on Budget and Policy Priorities; and Mr. Greg 
Russ, executive director and chief operating officer, Cambridge 
Housing Authority.
    Thank you all for being here. Without objection, your 
written statements will be made a part of the record, and you 
will each be recognized for 5 minutes to summarize your 
testimony. And we will start with Mrs. Boldon. You are 
recognized for 5 minutes.

  STATEMENT OF HOPE C. BOLDON, PRESIDENT AND CHIEF OPERATING 
  OFFICER, HUMAN DEVELOPMENT DIVISION, THE INTEGRAL GROUP LLC

    Ms. Boldon. Thank you. Good afternoon, Chairwoman Biggert, 
Ranking Member Gutierrez, and members of the subcommittee. I am 
honored to appear before you to discuss with you the Human 
Services Management Program that we have evolved, developed, 
and implemented in Atlanta over the last 10 years.
    Knowing that I don't have much time, I would like to start 
with a story that demonstrates exactly what we do. Early in 
HOPE VI--and this is an evolution from the HOPE VI model that 
we developed using that framework, and those funds, and the 
requirements--and early when we were working with the first 
HOPE VI communities, we had a family on our roster. This family 
had two disabled parents. One had a mental disability, and the 
mother had a physical disability and was wheelchair-bound. They 
had two able-bodied children, very bright, very smart. The 
daughter, who was 12 years old at the time when we started 
working with her--understand that these children became 
teenagers on our watch. The daughter was 12 years old. She was 
managing the family business, and she was handling the family's 
financials at 12.
    We started to work with the family, and discovered that 
though she was doing a pretty decent job, she had begun to 
become disrespectful to her parents. There was no adult 
leadership in the house, and our staff took that place in the 
household. They became--they had the vision for the family, 
they engaged the family in positive thinking about their 
futures, they began to go to PTO meetings with the mother and 
then for the mother. They made sure they had summer Programs. 
We got them a tutor from one of the close colleges, and they 
started to pick up with their schoolwork. In the meantime, we 
made sure that the parents met their appointments, got their 
therapy, whatever they needed, and even had their wheelchairs 
repaired.
    When she was 17, she became pregnant. We supported her 
through the pregnancy, got her back in school, and she 
graduated a year later.
    When our contract ended--and this took about 5 years 
because this was HOPE VI funds--when the contract ended, we 
thought, at least we had given them some stability as young 
adults. Fast forward to August 2011. One of my staff, the one 
who had worked with that family for 5 years, came back from 
lunch all excited and said, ``I just went to the Chase Bank to 
see about my money, and my teller was that young lady that I 
helped from the time she was 12 to the time she was 18. She 
says she has left public housing, she is looking after her 
mother in her own condo, she is looking after her 5-year-old 
daughter, and she is back in college.''
    I tell you that story because the work that we do is so 
complicated, I could never tell you about it in 5 minutes, and 
I want to leave you with a PACT, P-A-C-T. This is what our 
Program is about. First of all, we designed it with principles 
of human development that have been proven; that is the ``P.'' 
We hold everybody accountable; there is your ``A.'' We hold the 
housing authority accountable, we hold all the agencies and 
other service providers that work with us accountable, and we 
hold our own staff accountable. ``C,'' we counsel, coach, and 
connect our staff. We don't give direct services, but we are 
the conductor of the symphony that is people's lives, and we 
make sure that we pick the right agencies and hold everybody 
accountable to the outcome of the family's goals for life. And 
then ``T,'' we recognize that this kind of work took a long 
time in the happening, and so it is going to take a long time 
in the solution, and so we realize that families don't start to 
work with you unless they trust you. So there is our double 
``T,'' time and trust.
    Now, on our way here from Atlanta, we were able to upload 
the boarding passes onto our BlackBerrys if they work and then 
scanned them in the airport, and I just thought what an 
enormous source of brain power allowed that to happen. Now, I 
know that source of brain power can be focused to solve the 
problems in public housing.
    Thank you.
    [The prepared statement of Ms. Boldon can be found on page 
34 of the appendix.
    Chairwoman Biggert. Thank you very much.
    Mr. Woods, you are recognized for 5 minutes.

 STATEMENT OF LARRY C. WOODS, CHIEF EXECUTIVE OFFICER, HOUSING 
                   AUTHORITY OF WINSTON-SALEM

    Mr. Woods. Chairwoman Biggert, Ranking Member Gutierrez, 
and members of the subcommittee, good afternoon. Thank you for 
the opportunity to testify.
    My name is Larry C. Woods, and I am the chief executive 
officer of the Housing Authority of the City of Winston-Salem 
in North Carolina. I have over 25 years of leadership 
experience in the field of housing and economic development. I 
also grew up in public housing. The authority I represent has 
approximately 1,300 public housing units. We administer 4,600 
housing choice vouchers. We manage another 400 nonpublic 
housing units as well as two office buildings.
    I joined the housing authority in December of 2006, knowing 
that funding was shrinking. I realized that in order for the 
housing authority to survive and fulfill its mission, there had 
to be operational changes. Additional income streams needed to 
be created, and the creation of new private- and public-sector 
partnerships developed.
    It is clear to me our focus is and needs to remain housing 
management and community development. I also recognize that the 
availability and accessibility of performance-based residence 
services are vital to the advancement and well-being of the 
individuals and families we serve. Each family problem is 
extremely complex and uniquely challenging, requiring a 
multidisciplined and holistic approach.
    As real estate managers and development professionals, we 
need to do what we do best, and that is real estate. We are not 
educators, we are not health care providers, we are not mental 
health professionals, we are not workforce development experts. 
Our City of Winston-Salem has a wealth of agencies with the 
expertise and experience. They are more qualified to provide 
these services than we are. To mimic their operations would 
only result in the duplication of services, and that clearly is 
not the best use of taxpayer dollars.
    In order to provide these services, we developed 
partnerships with these local agencies through performance-
based contracts. For example, we contracted with the Urban 
League to evaluate resident skills, prepare them for 
interviews, and make job placements. Forty-three individuals 
have been placed in jobs for a total annualized salary of 
$648,000 at a cost of only $29,000.
    Chairwoman Biggert, although we have made great strides and 
progress, we have needs that cannot be resolved with the 
inflexibility currently found in existing rules and 
regulations. To address this, I believe Moving to Work must be 
considered as you continue to work on housing reform 
legislation. With the flexibility of MTW, we are able to align 
resources with our needs, and it is currently the only means to 
provide a lasting impact.
    Local housing authorities like mine must be allowed to 
develop and implement strategies to best serve the needs of 
their jurisdiction. The ability to become an MTW agency should 
be a choice open to housing authorities meeting basic 
qualifications rather than through a competitive process, and 
contracts must be unique to each housing authority.
    MTW does not result in any increase in Federal funding to 
an authority. However, MTW does provide the significant 
flexibility to use our available resources in more innovative 
and creative ways that are currently unavailable to us. As an 
MTW agency, our goal would be to achieve real results that 
would provide greater incentives for families to become less 
dependent on subsidies and move away from outdated policies 
that perpetuate low-income individuals and families living 
within distressed neighborhoods that provide no hope for a 
better life.
    As an MTW agency, we would have at a minimum the 
opportunity to design Programs as a stepping stone for self-
sufficiency, provide a means for individuals entering housing 
assistance to proceed to a series of services so that 
individuals can reach a point where housing assistance is 
either significantly reduced or no longer needed, create 
partnerships to develop individual plans and goals for those 
receiving assistance since the needs of each individual are 
unique. Given the current pressure on the Federal budget, it is 
now more important than ever to empower local housing 
authorities to do all that they can for their communities with 
the funds available to them.
    Madam Chairwoman, members of the subcommittee, I am 
requesting that the Housing Authority of Winston-Salem be given 
the tools to do what we can do best, and I am requesting that 
you hold me responsible and hold me accountable. This concludes 
my testimony. I want to thank you again for the opportunity to 
address the public policies based upon our efforts in Winston-
Salem, and I am happy to answer any questions you may have.
    [The prepared statement of Mr. Woods can be found on page 
100 of the appendix.]
    Chairwoman Biggert. Thank you, Mr. Woods.
    Ms. Warren, you are recognized for 5 minutes.

  STATEMENT OF KRIS WARREN, CHIEF OPERATING OFFICER, CHICAGO 
                       HOUSING AUTHORITY

    Ms. Warren. Thank you. Good afternoon, Chairwoman Biggert, 
Ranking Member Gutierrez, and members of the subcommittee. My 
name is Kris Warren, and I am the chief operating officer at 
the Chicago Housing Authority. Thank you for the opportunity to 
give testimony on the importance of the Moving to Work 
demonstration Program and its impact on low-income families in 
Chicago.
    In 2000, Chicago became one of the fortunate agencies to be 
granted MTW status. I am here to share the lessons learned and 
provide concrete examples on the impact of the MTW Program.
    The landscape of Chicago and the life trajectory of 
thousands of low-income families would not be the same without 
the local flexibility the MTW Program provides. Congress, with 
its great foresight, created MTW in 1996 to allow cities and 
housing authorities to develop and implement localized plans, 
incorporating the intent of Congress and the accountability 
required by HUD, but also the local conditions, political 
realities, community dynamics, and range of partnerships. MTW 
allows the relationship between HUD and the housing authority 
to be a partnership to solve issues, and not a cookie-cutter 
approach to compliance and regulations. Simply put, MTW allows 
PHAs to create specific housing models and services that are 
unique to their community needs.
    With this flexibility, Chicago has implemented the Plan for 
Transformation, one of the largest and most ambitious 
redevelopment efforts of public housing in the history of the 
United States. The goals of the Plan for Transformation are to 
ensure that all public housing is of the highest quality and 
contributes to the well-being of the renters and the 
neighborhood in which it is located. We develop the land on 
which former failed housing stood into mixed-income communities 
that are assets to their residents and surrounding 
neighborhoods, and build and strengthen residents and 
communities by encouraging economic independence and 
integrating the formerly isolated public housing and its 
leaseholders into the larger social, economic, and community 
fabric of Chicago.
    MTW allowed Chicago to demolish dilapidated high-rise 
housing that blighted the lives of residents and the 
surrounding community, while rebuilding, financing, and 
acquiring over 20,000 units so far. The developments that 
replaced the housing now reflect the housing patterns in the 
rest of the City, with low- and moderate-income families as 
well as market-rate families and mixed-income development. Home 
values around the surrounding communities have increased. 
Private investment in new businesses brings needed retail, 
services, and jobs, while City investments in infrastructure, 
schools, and parks have amplified the impact of CHA's work. To 
make these new communities a reality, CHA worked with private, 
public, nonprofit, and investor partners to leverage $1.7 
billion, including $1 billion of direct investment and 
infrastructure improvements by the City of Chicago.
    Perhaps most importantly, the Moving to Work demonstration 
Program has allowed us to serve substantially the same number 
of people as when CHA entered the MTW Program, but we are able 
to serve those families in safer and more dignified 
environments. In Chicago, those who rent through CHA are no 
longer warehoused in isolated islands of poverty. They are now 
integrated into the fabric of the City and part of the social 
structure of Chicago's great neighborhoods.
    While the change to Chicago's public housing buildings and 
communities is impressive, the plan's impact on residents' 
lives is perhaps most dramatic. People not only report feeling 
healthier and safer, but more people are working, and income 
from employment has risen from an average of $10,000 a year to 
$20,000 a year.
    Through the Plan for Transformation, CHA has learned the 
critical importance of linking housing assistance with 
supportive service Programs, including job training, financial 
literacy, and educational opportunities. Due to the MTW 
Program, CHA has been able to offer services that under statute 
could not otherwise be funded with Section 8 or public housing 
operating dollars. These services provide a multitude of 
opportunities that encourage resident accountability and 
progress toward economic independence. They are vital to the 
success of the Plan for Transformation and our goals of ending 
isolation, breaking the generational cycle of poverty, and 
ultimately encouraging movement out of the Federally subsidized 
Program.
    To date, Chicago's participation in the MTW Program has 
allowed us to help over 6,000 residents find employment, many 
for the first time in their life; increase the employment rate 
from 15 percent in 1999 to 60 percent among work-eligible 
residents today; place nearly 2,000 residents in transitional 
jobs, connecting them to real work; assist over 300 families in 
buying their first home; and ensure thousands of youth have 
employment, academic enhancement, and summer opportunities 
every year.
    We are proud of these accomplishments, but the numbers 
don't fully capture the human impact of the MTW Program. No one 
is more familiar with that impact than Crystal Palmer, who is 
here with us today. Crystal grew up in a CHA high-rise and 
returned as an adult, where she became a resident leader. 
Drawing on lessons learned in her own life, she has worked for 
CHA and our providers to help other residents connect to these 
services needed that will forever change residents' lives. And 
with that I want to welcome Crystal and thank her for joining 
me and offer her to answer questions if you deem it 
appropriate.
    [The prepared statement of Ms. Warren can be found on page 
90 of the appendix.]
    Chairwoman Biggert. Thank you.
    And for the purpose of receiving additional expertise and 
input from the Chicago Housing Authority, I ask unanimous 
consent that Ms. Crystal Palmer of the staff of Ms. Warren be 
allowed to assist her in answering questions.
    Ms. Warren. Thank you.
    Chairwoman Biggert. Without objection, it is so ordered.
    Mr. Fischer, you are recognized for 5 minutes.

  STATEMENT OF WILL FISCHER, SENIOR POLICY ANALYST, CENTER ON 
                  BUDGET AND POLICY PRIORITIES

    Mr. Fischer. Thank you, Chairwoman Biggert, Ranking Member 
Gutierrez, and members of the subcommittee. It is an honor and 
a privilege to testify before you today. I want to talk first 
about the proposal to expand Moving to Work and then turn to 
some of the self-sufficiency provisions in the Section 8 
Savings Act.
    The proposal to expand Moving to Work would allow HUD to, 
and possibly require HUD to, admit an unlimited number of 
agencies to the demonstration. This would fundamentally change 
Federal housing assistance. MTW, despite its name, isn't 
focused on promoting employment. It allows agencies to operate 
outside a wide range of Federal statutes and regulations and 
HUD to establish special funding formulas for participating 
agencies.
    MTW has commendable goals, such as testing innovative 
policies and providing streamlining and flexibility, and as you 
are hearing today, many MTW agencies have implemented promising 
initiatives. But despite that, MTW is not the best way to 
pursue those goals, and a major expansion of the demonstration 
isn't the right way forward for housing assistance for several 
reasons.
    First, MTW has not been effective in determining what 
policies really work in promoting self-sufficiency. It has 
generated a lot of anecdotal and other results, but it has 
generated few concrete policy findings, and that is because the 
demonstration really isn't structured in a way that lends 
itself to rigorous experimental evaluation. As a result, it is 
hard to know whether an outcome stems from a Moving to Work 
policy, or from changes in an agency's caseload, or underlying 
economic circumstances or other factors.
    More broadly, we really don't know very much about what 
kind of policies are effective in helping families with housing 
assistance to increase their earnings. It is a critical 
question, but if we really want to find answers to it, what is 
needed isn't more MTW; what is needed is targeted rigorous 
evaluations that test policy alternatives in a range of 
circumstances and really find out what works. The rent policy 
demonstration in SESA is an example of something that moves in 
this more promising direction.
    MTW also isn't the best way to provide streamlining and 
flexibility. On the one hand, MTW allows agencies to remove 
basic Federal standards that have been key to making housing 
assistance Programs effective. On the other hand, its 
flexibility only reaches participating agencies and not the 
remaining housing agencies. There are definitely areas where 
flexibility and streamlining are needed, but the best approach 
to that is for Congress to provide, to pass targeted 
legislation that applies to all housing agencies in those 
areas.
    The last point I want to make on Moving to Work is that a 
major expansion of Moving to Work would create a real risk that 
there would be a really large transfer of resources away from 
housing assistance for the lowest-income families to other 
purposes, and that is partly--already under Moving to Work, MTW 
agencies in 2010 transferred about $400 million in housing 
voucher funds to a range of other purposes.
    In addition, MTW has income-targeting rules that are much 
weaker than those that apply especially in the existing voucher 
Program. There would be a risk, especially in a tight funding 
environment, that agencies would feel pressure to shift 
resources to assist somewhat higher-income families who require 
less subsidies, and the result of that would be that you would 
have a lot less assistance for the lowest-income families with 
disabilities, for families at risk of homelessness, and for 
others who need the help the most.
    I want to turn now to the Section 8 Savings Act, which 
overall is a well-crafted, important piece of legislation that 
would improve housing assistance Programs and generate large 
Federal savings. There are several new provisions in the 
current draft that haven't been included in previous drafts, 
and I want to touch on two of those.
    One of them is that the new draft would permit housing 
agencies to charge families up to $75, the higher of $75 or 12 
percent of the local fair market rent, even if this is above 30 
percent of their income. It is not clear that even the increase 
of $75 is warranted. That would place as many as 350,000 
families at risk of rent increases. But the increase to 12 
percent of the fair market rent is especially problematic 
because that could result in substantially larger minimum 
rents, especially for large families and for people who live in 
high-cost areas. So I think it will be important as this 
legislation moves forward that Congress take a look at these 
provisions and reconsider them.
    SESA also contains a new self-sufficiency initiative that 
encourages agencies to enter into partnerships with local 
providers of employment and supportive services. This is 
generally a promising and important initiative. We have some 
significant concerns and suggestions for improvements, which 
are detailed in my written testimony.
    I will close with that. Again, thank you for the privilege 
of testifying before you today, and I will be happy to take any 
questions that you have.
    [The prepared statement of Mr. Fischer can be found on page 
72 of the appendix.]
    Chairwoman Biggert. Thank you, Mr. Fischer.
    Mr. Russ, you are recognized for 5 minutes.

  STATEMENT OF GREGORY P. RUSS, EXECUTIVE DIRECTOR AND CHIEF 
         OPERATING OFFICER, CAMBRIDGE HOUSING AUTHORITY

    Mr. Russ. Good afternoon, Chairwoman Biggert and Ranking 
Member Gutierrez. And my thanks to the members of the 
subcommittee for inviting me here to speak.
    I am Gregory Russ, the executive director of the Cambridge 
Housing Authority. And I have been operating or working in one 
way or another in this business for 37 years, actually prior to 
the creation of the housing voucher Program that we are talking 
about here today--an interesting point that wasn't lost on me 
when others were testifying.
    I want to point out that the CHA was one of the original 24 
MTW agencies. And since that time, since we started down this 
road in 1998, 1999, we have pursued a number of policies that I 
believe address a number of the points that were made earlier 
when the various members of the subcommittee and various 
Members of the Congress had an opportunity to speak.
    We really have to think about a way to make structural 
reforms, and MTW does that. It does that in several ways. One, 
it balances the demands of the local market and conditions that 
we are in with the larger objectives of the Federal policy.
    Cambridge, Massachusetts, is one of the most expensive 
housing markets in the country. If you look at our three-
bedroom payment standard, which we are only allowed to set due 
to MTW, it is $2,000. In some of the communities around the 
country, that would be three vouchers. So we have this very 
expensive, very difficult market to work in.
    And it has not been lost on us that one of the things we 
must do is preserve the hard stock that we have in Cambridge in 
order to allow the community to continue to serve low-income 
families. And, in fact, that is one of the themes you will see 
in our Moving to Work plans and reports.
    We also wanted to simplify the business relationship with 
the families. Most of you have talked about structural reform. 
Try and calculate a rent under the current rules. It is very 
difficult. And it is very difficult for the family to 
understand not only what the rent is, especially on the voucher 
side, but how much money they will have to operate when they go 
out and try to rent the unit. These are structural changes that 
we have taken on, and one of the policy innovations I will talk 
about in a minute.
    We have also concluded that we have to provide a variety of 
incentives and approaches, working with our nonprofit partners 
in our community, to encourage and promote work for the 
families who participate in these Programs. And one thing that 
MTW has allowed us to do, much like some of the other agencies 
here, we are partnered up with the nonprofits who work in 
Cambridge and across the Boston region in ways we could not 
have imagined 5 years ago. It is very powerful in terms of 
forming partnerships with groups that are helping populations 
that you may not be able to typically serve through the 
conventional Program.
    Some of the things in Cambridge that we are attempting: We 
have created a Program called a sponsor-based voucher, where 
the subsidy is provided to organizations that are service-rich 
or dealing with transitional housing Programs or for unique 
populations, such as those who are homeless or victims of 
domestic violence. We currently have 59 subsidies doing that.
    We have partnered with nonprofits, four of them, working 
with families who are in shelters and are homeless. And we have 
55 subsidies dedicated to that Program, which envisions 
training, support, budget, building savings, and, finally, 
families moving on to self-sufficiency. These subsidies start 
as a sponsor-based and then transform to a tenant-based and 
allow the family to--the subsidy flexes, in a way, as the 
family is moving along the path to self-sufficiency.
    We have another 20 subsidies dedicated to a Program we call 
the Career Family Opportunity, with the Crittenton Women's 
Union, which is a 103-year-old nonprofit that has been working 
with women in the Boston region for a long time. And this is 
another effort to bring households, typically single-headed 
households, into the working world. This is a subsidy that, on 
graduation, the family who has a voucher voluntarily agrees 
after 5 years to give up the voucher. So it kind of flies in 
the face of what we think of when we think about families who 
are economically disadvantaged. That is part of the requirement 
of the Program. There are shallow subsidies available to those 
families, and that Program looks very different than anything 
we could have done in the conventional forum.
    Two other things I will mention. We have changed the way we 
project-base vouchers to allow for the preservation of units in 
Cambridge, and we adopted a rent-simplification policy. And 
what is potent about the rent-simplification policy is people 
understand how the rent was calculated.
    These are the kinds of reform that SESA is getting at and 
we think that Moving to Work can expand upon. And we are very 
interested in taking your questions or talking about these 
ideas as we try to bring them to scale.
    Thank you for the opportunity to speak to you today.
    [The prepared statement of Mr. Russ can be found on page 86 
of the appendix.]
    Chairwoman Biggert. Thank you, Mr. Russ.
    We will now turn to Member questions, and I will recognize 
myself for 5 minutes.
    Ms. Warren, you made a really interesting statement in your 
testimony that I would like to revisit. You said the landscape 
of Chicago and the life trajectory of thousands of low-income 
families would not be the same without the flexibility that the 
Moving to Work Program provides.
    Could you expand on that concept for the committee?
    And then, I do have a question for Ms. Palmer.
    Ms. Warren. I would be happy to.
    I think all you need to do is look at the landscape of 
Chicago today, and you will see the difference from what it was 
10 years ago. The high-rise, isolated, miles of public housing 
that was desolate, didn't have retail, didn't have markets, 
families couldn't get their mail delivered, is no longer there. 
What you see now are beautiful mixed-income communities that 
are built into the fabric of the entire Chicago community.
    Chicago, 10 years ago, had 14 of the 16 poorest census 
tracts in the United States. And I hate to say it, but the 
Chicago Housing Authority, 10 years ago and longer, was the 
poster child for what public housing shouldn't be and how 
government and public housing didn't work. Today, with the MTW 
flexibility and the creativity and innovation of the City of 
Chicago and the agency, they have been able to tear down and 
rebuild brand-new communities and be able to provide residents 
opportunities to be prosperous.
    The reason that residents can be prosperous is not only 
because they are in brand-new communities but because we have 
been able to provide wraparound services. These services are 
put together through what we term our FamilyWorks Programs, 
which are social service agencies that do holistic approaches 
with our families. And so if there is any--we set up specific 
Programs with each individual family to work within the fabric 
of that community.
    So I think it is really simple, just looking at what 
Chicago is today versus what you saw 10 years ago.
    Chairwoman Biggert. Thank you. And I certainly have--it 
certainly has changed the skyline of Chicago, too. I have been 
in the Robert Taylor Homes, I was in Cabrini-Green, Henry 
Horner, and just about all of them, and it really has changed 
and made it a beautiful area.
    With that, Ms. Palmer, maybe you could--this is going to be 
kind of awkward, but we will see what we can do here. I know 
that you are a Chicagoan and that you are in Congressman Danny 
Davis' congressional district. And you have had firsthand 
knowledge of the impact of supportive services like those being 
discussed today.
    So, from your experience, do you believe that the MTW 
Program has made a difference in linking services to housing? 
Or is housing alone enough to help a family achieve economic 
independence?
    Ms. Palmer. I will answer the last question first.
    Bricks and mortar do not build a family. You can build a 
house, but it is the support that you give the family to help 
maintain those families. So the wraparound services that we 
have for employment, child care, mental illnesses, and clinical 
services is the kind of services that our families need. When 
the high-rises were up, our families were just isolated, didn't 
have services, didn't have adequate child care, didn't have 
employment. These services now come into play where our 
families are able to engage in employment, education, and make 
their lives better and better for their families.
    And I think what is really important to me is that our 
youth, our young generation gets to actually see their family 
members actually going to work, going to school, trying to 
become self-sufficient, so when they, too, become adult age, 
they can follow the same pattern.
    Chairwoman Biggert. Thank you.
    Then just briefly, linking the services, how does that 
happen?
    Ms. Palmer. So there is, again, the FamilyWorks Program, 
whose outreach workers actually go out and knock on doors and 
talk to families and tell them about the services. As a matter 
of fact, I used to be an outreach worker for one of the 
services, and I would go out and I would just talk to the 
families about the services that they need.
    Because I am a friend of that community, people began to 
trust me. And in trusting me, they would allow the clinicians 
or the outreach workers to actually come in and engage with 
them. Once they got inside of the houses, they found that there 
were many, many issues. Families didn't identify themselves 
because it was a norm for them. And so, by them being able to 
get into those houses and address some of the issues, a lot of 
those families have moved toward self-sufficiency.
    Chairwoman Biggert. Okay. I thank you so much. And my time 
has expired.
    Mr. Gutierrez, you are recognized for 5 minutes.
    Mr. Gutierrez. Thank you so much. I really appreciate it.
    I hope that the next time maybe we can have a hearing--
because it seems like every time we talk about public housing 
we have to mention crime, as though they are interwoven--crime. 
Maybe the next time we talk about the $100 billion that we 
subsidize housing in America through the deduction we give 
people on their interest, we should talk about crime, too. But 
people say, Luis, what are you doing that for? Maybe we should.
    So I always kind of worry about crime and public housing. 
We are all concerned about crime, but it always seems to be 
that one thing always seems to be linked with the other. And 
then, lately, it is the illegal immigrants; you have to throw 
them in. You have black people; let's throw in the brown 
people, too. Kind of like in Alabama, 40 years ago, you know 
what happened there. So let me just make that statement for the 
record.
    And then, Ms. Warren, I would like to ask you, what are 
things that we can do from our perspective that can help you in 
Chicago?
    And, first of all, I want to say, thank you for coming. And 
please give my best and warmest regards, as he left Charlotte 
to come to Chicago, lost to my colleague, Mr. Woodyard. Thank 
him for coming, and tell him I wish him Godspeed.
    Tell us, what can we do to help you?
    Ms. Warren. I will make sure to pass along your kind words. 
We look forward to his starting, as well.
    I really appreciate what Congress has done thus far with 
the MTW Program, because it has made all--we would not be where 
we are today without it.
    I do think continuing the flexibility with the Program is 
key. I know there have been some discussions about trying to 
rein in some of the flexibility and maybe putting a few more 
regulations on the Program, and that is a little concerning, 
because I think our Program has been so successful because we 
have been able to cater it and mold it and evolve it to where 
we know it works. And we continue to evolve it. And we have 
been--
    Mr. Gutierrez. So, of every 100 public-housing residents 
that you had, how many leave public housing? What percentage 
leave to private housing? How many leave the voucher system to 
non-voucher-system housing?
    Ms. Warren. As of today, I don't have exact numbers for 
you. What I can tell you right now is, as an example, we have 
over 300 families who have purchased homes through the Choose 
to Own Program. We have over 827 families who have graduated 
out of our Family Self-Sufficiency Program, with a total of 
$7.4 million--
    Mr. Gutierrez. And they have gone on to non-assisted 
housing?
    Ms. Warren. Many of them have.
    What I will also just back up and explain is that, through 
the last 10 years of the Plan for Transformation, we have been 
working with the same population who started and helped us 
through the Plan for Transformation. So a number of those 
families are still with us and will probably end up remaining 
with us.
    What we are working on now with those families is that 
younger generation so we can break that generational cycle of 
poverty, we can encourage the youth, through education and job 
training, that there is something you can do when you turn 18 
besides moving into another public housing unit.
    One of the things we offer through the MTW flexibility is 
free city college tuition to any public housing resident after 
financial aid.
    Mr. Gutierrez. I thought you might say that. I was hopeful. 
So, in other words, if Congress increased Pell grants so that 
people could go to college instead of refuse to increase Pell 
grants, that might help you take people to self-sufficiency. If 
Congress actually supported increasing minimum wage in this 
country, that might help you take people to self-sufficiency. 
If Congress somehow increased Head Start Programs and 
nutritional Programs for people, that might actually help 
people get--if we sponsor job training Programs and skill 
training Programs so they would have new skills so they could 
go out in the market, that might actually help you.
    Ms. Warren. Absolutely.
    Mr. Gutierrez. Because I think, many times, unfortunately--
and I go back to what Mr. Woods suggested to us--we kind of say 
here, ``You are only supposed to be there a short amount of 
time, and then you are supposed to get off. It is only supposed 
to be a short period of time.'' But when it comes to all of the 
other substantial things that we might be able to do to help 
people get to self-sufficiency, we vote against it. But then we 
ask you, the managers of public housing, to do more with less 
and, at the same time, give less to the very population that 
you represent.
    Ms. Warren. Exactly.
    Mr. Gutierrez. So I just wanted to draw on that and to 
thank you, because it is a hard job. And I know a lot of the 
work that goes into making--and I just want to state for the 
record that those of us who believe in public housing, we are 
some of the strongest people against those who sell drugs, who 
are gang members, who cause violence. We are strong. And we 
don't need anybody pontificating to us what it is we need to do 
when it comes to that. We are strong. We want a good, clean 
community. We would only hope people would help us achieve 
that, given the wealth and the depth of richness that this 
Nation has.
    Thank you so much.
    Ms. Warren. I really thank you for your comments.
    Chairwoman Biggert. And thank you. The gentleman's time has 
expired.
    The gentleman from Virginia, Mr. Hurt, is recognized for 5 
minutes.
    Mr. Hurt. Thank you, Madam Chairwoman.
    I thank each of you for testifying today.
    My district is mostly rural, southern Virginia. And my 
question is for--I would like to hear from Mr. Woods about the 
Program that he is involved in, in Winston-Salem, maybe because 
it is the closest one to where I live.
    But it sounds like to me, in the last 15 years, this has 
provided a real improvement to what you all do. And I think it 
sounds to me that most people recognize that the model 
previously demonstrated it was not working very well and 
improvements were needed.
    And so I was wondering if you could maybe cite specific 
examples of where the inflexibility of the current rules and 
regulations for PHAs, where--could you offer some specific 
examples of how that keeps you from meeting your objective?
    Mr. Woods. Thank you very much.
    One of the problems that we see in Winston-Salem is the 
fact that we are unable to help families move because of in-
place rules and regulations. One has to do with something 
called ``split families.'' It allows an individual who is 
living in a unit who is an adult to come into our management 
office and say, ``I am not getting along with my brother, I am 
not getting along with my sibling, I want a split family.''
    Now, that is a problem because we have a large waiting 
list--200, 300, 400 individuals at any one time. This 
individual is already receiving some benefit of public tax 
dollars, living in a unit. Now they are jumping ahead of the 
waiting list, and they get preference to move into a unit over 
someone who has been waiting on the waiting list. And that is a 
problem for us because we are unable to move families who have 
been waiting for affordable housing or assisted housing to move 
in. That is one of the regulations that hurt us.
    Streamlined reporting: Mr. Russ talked about rent 
calculation. It is complicated. It is also complicated when one 
part of HUD asks you to keep your financial records on an 
accrual basis and another is asking you to keep it on a cash 
basis, and then you get somebody who says, ``Reconcile the 
two.'' It is impossible. Those are just two examples.
    Mr. Hurt. Do you--
    Mr. Woods. Income exclusions: An individual has been 
unemployed for over a year. When they do get a job, for the 
first year the new income cannot be included as part of a rent 
calculation. So what happens? They go out, they get a credit 
card, they buy additional appliances. Then when it is time for 
the rent to kick in, guess what happens? They come to us and 
say, ``I quit work, so my rent stays the same.'' So, for a full 
year, they have had that benefit--
    Mr. Hurt. Right.
    Mr. Woods. --and we have been having to subsidize that, and 
now, when it is time for them to pay a portion of a higher 
rent, they quit work because there is no real work requirement. 
They can just say, ``I quit work,'' and there is nothing we can 
do.
    Those are several examples that hamper us in really helping 
a larger number of people on our waiting list.
    Mr. Hurt. Do you believe, for the individuals and the 
families who receive the Section 8 assistance, do you believe 
that the opportunities for job training and education and 
employment are more readily available for those PHAs that have 
the MTW Program as opposed to others?
    Mr. Woods. Oh, no doubt about it. They can come up with 
different types of incentives, as both agencies here talked 
about. I love the idea of an incentive of providing some type 
of college tuition. That is a carrot-and-stick approach. That 
is what is going to motivate individuals. There has to be a 
light at the end of the tunnel.
    Mr. Hurt. All right.
    And let me just--one final question. How do you respond to 
some of the concerns that were raised by Mr. Fischer in terms 
of the suggestion that these principles are not proven and that 
somehow we are going to actually end up hurting the communities 
that we are trying to serve as opposed to helping them?
    Mr. Woods. I think Ms. Warren's testimony is the proof in 
the pudding: transformation of Chicago; better lifestyle; the 
integration into the broader community; mainstreaming families.
    What we believe is that, given the opportunity to come up 
with a unique Program guideline for our City, we can help more 
people move through the system quickly so that we can then move 
people from our waiting list to backfill that number.
    We have looked at it; we have been visiting other cities, 
such as Atlanta. We visited Chicago, we visited Kentucky. They 
all have great MTW Programs. We are looking for our 
opportunity.
    Mr. Hurt. Thank you.
    I yield back.
    Chairwoman Biggert. Thank you.
    The gentlelady from California, Ms. Waters, is recognized 
for 5 minutes.
    Ms. Waters. Thank you very much, Madam Chairwoman.
    I am between two committees, but I wanted very much to be 
here today because I think we really do have to understand more 
about Moving to Work; I have to understand a lot more about it.
    So I am going to start with Mr. Fischer. In the previous 
Congress, we had a bill called the Section 8 Voucher Reform 
Act, which expanded the Moving to Work Program but did so in a 
manner that protected residents and the housing stock. One of 
the important features of that bill was the inclusion of 
retained provisions, parts of the 1937 Housing Act that Moving 
to Work agencies could not waive. The retained provisions 
included things like tenant representation on the public 
housing authority's board, procedural rights for a tenant, 
lease requirements, resident choice portability, and other 
important parts of the public housing and Section 8 Program.
    Can you speak to the harm tenants would face if every 
housing authority in the country can waive provisions I just 
described?
    Mr. Fischer. Sure. I think that there would be harm if 
there were an unlimited Moving to Work demonstration where 
agencies were able to waive the full breadth of housing 
assistance rules.
    I will just give one example, which is voucher portability. 
Under the existing voucher Program, families have to have the 
right to move anywhere in the country where there is a voucher 
Program. It is a critically important right that helps people 
get the most out of their housing assistance, and it is the key 
policy decision that Congress made in establishing the Program. 
Under MTW, if there aren't any--under MTW agencies, in a number 
of cases, have curtailed that right in various ways, and this 
makes having the assistance less useful to the families who 
receive it.
    And that is just one example of something that, in a 
sweeping MTW situation, can get moved aside. It is a provision 
that helps to make housing assistance more effective. There are 
a lot of other examples of these provisions, like the ones that 
you mentioned, that could also be removed.
    Ms. Waters. Additionally, you say MTW isn't a good deal for 
taxpayers. What do you mean?
    Mr. Fischer. I think what has happened in MTW is that there 
is a lot of funding--MTW permits funding shifts from the 
voucher Program to a range of other purposes. And one of the 
effects of this is that MTW has been less cost-effective in 
providing housing assistance to the lowest-income families.
    Housing agencies have used that money for a range of 
purposes, including some of the initiatives you have heard 
about today that are effective policies. In other cases, there 
have been situations where money has been wasted. For example, 
in the Philadelphia Housing Authority, which is one of the 
largest MTW agencies and in 2010 accounted for about one-sixth 
of the funds that were transferred, there have been a series of 
allegations of misuse of funds for a whole range of purposes, 
from payments for expensive professional services contracts, 
for gifts to employees, for very unnecessarily expensive 
construction projects.
    And so what has happened is that there have been--some of 
these funds have been used well, but other funds have been used 
less well.
    Ms. Waters. Thank you.
    Now, I take it we have some of our housing authorities that 
are represented now that have Moving to Work Programs?
    Ms. Warren. Yes.
    Ms. Waters. You and you? How do you use your resources? How 
do you administer your Moving to Work Program? What do you do 
with the additional money?
    Ms. Warren. I am sorry, with the initial--
    Ms. Waters. Resources that you get for the Moving to Work 
Program. How do you use those resources?
    Ms. Warren. We are a part of the--we have the Plan for 
Transformation--that is the terminology that we use in 
Chicago--which is a 15-year, very strategic plan that has been 
in place since 2000. And that plan has allowed us to 
strategically work through all of our public-housing high-rises 
as well as work with our resident populations.
    So, every year, we have--again, we have a long-term plan, 
but every year we refine and evolve that plan and tailor the 
needs of the funding to what that year brings about, whether it 
is demolishing and rebuilding, whether it is financing of 
housing, whether it is adding different Programs to our 
resident services portfolio to help families with, say, early 
childhood--
    Ms. Waters. Give me an example of your Programs that you 
have.
    Ms. Warren. On the resident services side?
    Ms. Waters. Yes.
    Ms. Warren. Okay. So we are set up through what we call the 
FamilyWorks Program, in which we contract with five service 
providers. And these service providers provide holistic, hands-
on wraparound services to our families. They literally go door-
to-door and work with our families on measured outcomes and 
plans to help them achieve either self-sufficiency or some type 
of economic gain. And we will do that with each family. We 
will--
    Ms. Waters. This service helps to get them into job 
training Programs, and you have a job developer who gets jobs 
for them?
    Ms. Warren. That is correct. We have job training, we have 
transitional jobs that we work with, we have a workforce 
development component. We also have a huge educational 
component. I mentioned--and I am not sure if you were here 
earlier--that we actually pay for city colleges for any family 
who is in our public housing development.
    Ms. Waters. So you are helping the residents to become 
independent, and you have actual statistics on how many jobs 
and all of that?
    Ms. Warren. That is correct, we do.
    Ms. Waters. So, Mr. Fischer, how could you say that it is 
not money well spent?
    Mr. Fischer. It is not that I think that--I think, like I 
said, some of these uses are good expenditures of funding. We 
strongly support having adequate funding to revitalize public 
housing. Targeting services on families in housing assistance 
would also be a good use of funds.
    What I object to is funding these uses by shifting money 
out of the housing voucher Program. Federal housing assistance 
today only reaches about one in four eligible families. There 
are long waiting lists in communities across the country--
    Chairwoman Biggert. Time has expired. Maybe you can come 
back to that because--
    Ms. Waters. Thank you.
    Chairwoman Biggert. --Ms. Boldon is a service provider, and 
Mr. Russ, I think, had an answer, too.
    The gentleman from California, Mr. Miller, is recognized 
for 5 minutes.
    Mr. Miller of California. Thank you, Madam Chairwoman.
    I want to applaud all of the witnesses today. I think your 
input has been excellent. And your knowledge and your breadth 
of knowledge is really quite astounding.
    Mr. Fischer, you made a couple of comments that concern me 
a little bit. You said MTW hasn't determined specific policies 
that should be used; that is a concern for you. And you don't 
know what policies should work. I suggest it is not for you. I 
think MTW will not work for you. That is not a question. I just 
don't think it is good for you, based on what you have said.
    The Public Housing Authority Directors Association, though, 
responded to some of your writings, and they said, ``PHADA 
wishes to bring some matters concerning the Moving to Work 
demonstration to your attention, particularly as they relate to 
recent criticisms of the Program based on faulty, incomplete, 
and inconsistent assessments by the Center on Budget and Policy 
Priorities.'' I believe that is you.
    ``Based on assessments by the Urban Institute, the 
Department of Housing and Urban Development, and the 
independent study sponsored by MTW agencies, PHADA believes 
that the demonstration has been one of the most fruitful 
sources of innovation and growth for deeply assisted housing 
Programs during the 13-year history of the Program.'' I think 
that speaks volumes.
    And I would like to applaud you, Mr. Woods, because you 
said some things I believe in. You said, ``Empower me.'' That 
is what my bill tries to do. You said, ``Hold me accountable.'' 
My bill does that through verifying and evaluating your 
accountability. You said, ``I have innovative ideas.'' We are 
looking for those. You said, ``I believe in resident 
protection.'' I think that is wonderful; so do we.
    Ms. Boldon, you said moving toward economic independence is 
huge and it has really worked for you. That is what this does 
also. And serving more families is what you are all about. And 
that is what MTW does.
    I think it is a really good Program. The witnesses today 
have supported my belief in it. It is not about cutting people 
off. It is about helping people, showing them that they can do 
many things on their own if they are just given a little 
direction, a little encouragement.
    But Ms. Warren, Ms. Boldon, Mr. Russ, and Mr. Woods, 
perhaps you would want to give some examples of successful 
Programs on helping residents become economically independent 
and how, basically, you were able to do this through MTW. Give 
me some examples that you would not have been able to do if you 
wouldn't have been in MTW.
    Mr. Russ. Yes, I would like to give a very specific one, 
and I would like to make two other observations. One, in 
Cambridge, the retained provisions that Congresswoman Waters 
mentioned, we do operate with most of those. We have not 
abandoned those protections for many of those items.
    And, second, I think that the comment that Mr. Fischer made 
on Philadelphia is off the mark, in the sense that we are 
actually speaking here about individual issues, and it is yet 
to be determined if there is--
    Mr. Miller of California. And I would like to make one 
comment because I don't like just to read letters from public 
housing authority directors--
    Mr. Russ. Sure.
    Mr. Miller of California. --so we went and asked your 
people, I said, how many sites did you visit? They said, we 
didn't. How many residents did you interview? We didn't 
interview any. Were you able to visit Atlanta or Georgia sites, 
particularly? They said, no. How do you respond to the academic 
findings regarding residents' employment and income 
improvements? They couldn't.
    So I wasn't willing just to accept the letter; we have gone 
and asked your people. And all those questions I just asked 
you, those were the answers we got back.
    Go ahead and--
    Mr. Russ. And, Congressman, I would like to give one 
example. We have a Program, it is an after-school program 
called the Work Force Program. It starts with kids in 8th grade 
and works through 12th grade, and it follows them for the 
entire time. We have funded that Program through a variety of 
sources in the past. Some of them are no longer available. We 
now fund that Program using our Moving to Work flexibility.
    That Program graduates out of high school on an annual 
basis 95 percent of its participants. Another 93 percent of 
those kids go on to a secondary education. And the last time we 
surveyed, 6 years after graduation about two-thirds of those 
kids no longer lived in public housing.
    So that is just one example of a small Program in Cambridge 
that we are using our MTW flexibility for.
    Mr. Miller of California. That is good.
    Ms. Warren, let's give you a chance, too. Give me some 
ideas of what you have done.
    Thank you, sir. I didn't mean to cut you off. I am almost 
out of time.
    Mr. Russ. Thank you.
    Ms. Warren. So, I have a multitude of Programs.
    Mr. Miller of California. Give me one.
    Ms. Warren. I think one that is quite innovative that we 
use our MTW flexibility on is called Learn & Earn. And it is 
geared toward specifically youth from ages 13 to 15, because 
those youths tend to be left out of all the other Programs that 
are targeted to youth under 18.
    And so what we do is we work with them and actually pay 
them to go to school in the summertime for half a day, and they 
receive an academic--usually math or science, and learn for 
half the day. And the second half of the day is about job 
training and job placement and job growth.
    So for an entire summer they earn a stipend, they learn, 
and they get educated on the job, as well.
    Mr. Miller of California. That is great.
    Ms. Boldon, do you have something quick?
    Ms. Boldon. Yes. In Atlanta, we started a preemployment 
workshop, and we did this in conjunction, of course, with the 
Atlanta Housing Authority. And what we have been able to do is 
we have placed over 2,000 people in jobs. And we track them, 
and they have been employed over 6 months.
    Mr. Miller of California. My time is up. I want to thank 
you all for what you do. God bless you. And keep up the good 
work.
    And, those who don't want to do it, have fun with what you 
are doing. But, those who want to move people to work, I just 
wish you all the best in the future. God bless you, and thank 
you for what you do.
    Chairwoman Biggert. Thank you, Mr. Miller.
    The gentleman from Ohio, Mr. Stivers, is recognized for 5 
minutes.
    Mr. Stivers. Thank you, Madam Chairwoman. I appreciate you 
holding the hearing on these issues and your leadership on 
Section 8 reform.
    I got a letter from my metropolitan housing agency. I live 
in Columbus, Ohio, and the Columbus Metropolitan Housing Agency 
is not part of the Moving to Work Program. They would like to 
be. So, much like Mr. Woods, the Columbus Metropolitan Housing 
Authority is anxious to get engaged and involved in this 
Program. And I just wanted to read something that they said to 
me, and then I have a question for Mr. Woods first.
    They believe that, under MTW, they will have a better 
opportunity to get people to work and stabilize their resident 
pool and increase the incomes in their community. And I assume 
that is--you talked about some of those same things, Mr. Woods, 
and your interest in getting in the Program and what you guys 
have done.
    I guess my question is for Mr. Woods, Ms. Boldon, and Mr. 
Russ. Have any of you experienced the ability to stabilize your 
rent pool as part of the Moving to Work, and has it increased 
incomes in your neighborhoods?
    Ms. Boldon. I run an agency that partners with the housing 
authority--
    Mr. Stivers. Right, you partner with--sorry, sorry.
    Ms. Boldon. --so I am going to leave some of those answers 
for the housing authority folks.
    Mr. Stivers. Yes.
    Ms. Boldon. But I would like to say that our employment 
levels over the 10 years went from 18.5 percent to 78 percent 
at its peak, and it is now back at 56 percent because of the 
slowdown in the economy.
    Mr. Stivers. But that is still a pretty impressive 
improvement.
    Ms. Boldon. We are very proud of it. We call ourselves 
``pragmatic idealists.''
    Mr. Stivers. Yes.
    We can just go down. And I know Mr. Woods wants the same 
thing that our Columbus folks want.
    Mr. Woods. Yes. I just want to say very quickly, Winston-
Salem is in a very unique position. In our City, we actually 
have a medical research park that is being built, and 27,000 to 
30,000 new jobs are being predicted.
    Mr. Stivers. Wow.
    Mr. Woods. It is a culmination of Wake Baptist Hospital and 
several universities. If you don't know, Winston-Salem Medical 
Park has some leading industries that are coming in. They are 
able to actually grow body parts, and it is moving.
    This park is right next to my low-income community. Moving 
to Work will give us the opportunity to train residents to at 
least apply for the entry-level positions. That is why we are 
very, very concerned about being an MTW agency.
    Mr. Stivers. And that is what I think the Columbus 
Metropolitan Housing Authority wants to do, too. So, in the 
interest of time, I will move on, and I know that you all have 
some great points to make.
    Mr. Russ talked earlier about project-based vouchers. And 
one of the other things that the Columbus Metropolitan Housing 
Agency has done a great job of is being a leader in project-
based vouchers. There is a 20 percent cap on project-based 
vouchers, and they are starting to bump up against that. It is 
going to hurt their ability to serve specialized populations, 
including veterans, homeless folks, and also seniors. And they 
are really worried about that.
    Since you are the only one that I heard mention project-
based vouchers in your testimony, Mr. Russ, I didn't know if 
you wanted to talk about your experience quickly with project-
based vouchers and how they can leverage private money and 
really be successful.
    Mr. Russ. There are two things I would like to say.
    We redid the way--we abandoned the current regulatory 
framework, so we no longer have the cap in place. And we did 
that partly in response to the needs of some of the other 
nonprofits in the community, and our own needs, to be fair. So 
we do not have the cap that Columbus is bumping up against.
    And it has worked extremely well, in terms of helping us 
preserve probably close to 500 units in the City of Cambridge. 
And much of that housing is not our housing; it is the housing 
of the nonprofits who are at work in the community.
    Mr. Stivers. And you got that exemption through HUD, right?
    Mr. Russ. That was part of the Moving to Work agreement. 
And the other thing--
    Mr. Stivers. Which is the other reason Columbus wants to be 
in Moving to Work.
    Mr. Russ. Right. And I think one of the things about Moving 
to Work is it has really excellent unanticipated consequences. 
And the example I want to give is that, recently, we also 
assisted a nonprofit in our community who was purchasing an 
expiring-use property--
    Mr. Stivers. And I am running out of time, but--
    Mr. Russ. Okay.
    Mr. Stivers. --I appreciate that.
    And I do want to ask Mr. Fischer one last question, because 
you brought up the Philadelphia Metropolitan Housing Authority 
and the mismanagement and potential corruption that has been 
alleged at that metropolitan housing authority is not limited 
to Moving to Work, is it?
    Mr. Fischer. Well--
    Mr. Stivers. It is a yes-or-no question. Is it limited to 
Moving to Work?
    Mr. Fischer. I think it results from Moving to Work at 
Philadelphia.
    Mr. Stivers. You believe it is limited--
    Mr. Fischer. It is not the only agency that has problems. I 
think--
    Mr. Stivers. So you believe it is limited to Moving to 
Work?
    Mr. Fischer. I think it stems from Moving to Work.
    Mr. Stivers. But, from what I have seen, it is widespread. 
And, unfortunately, there are good and bad actors in every 
industry. And Philadelphia Metropolitan Housing Authority might 
not be one we--
    Chairwoman Biggert. The gentleman's time has expired.
    Mr. Stivers. Thank you.
    Chairwoman Biggert. The gentleman from Illinois, Mr. Dold, 
is recognized for 5 minutes.
    Mr. Dold. Thank you, Madam Chairwoman.
    And, if I can, I would like to, first of all, thank you all 
for coming again and thank you for your time.
    Ms. Warren, I am going to start with you. Because probably 
half of the questioners up here are from Illinois, we are going 
to focus more of our questions on Chicago, not to their 
detriment, but that is just the way it works.
    Mr. Russ. She is up to the task.
    Mr. Dold. You highlighted that the CHA's Plan for 
Transformation involves breaking the generational cycle of 
poverty for the population served. And I certainly know that 
many here believe that this goal is paramount if we are going 
to succeed in our goal to approve assisted housing Programs in 
America.
    So what is Chicago doing specifically to address this 
daunting challenge, and what have been the results as of late?
    Ms. Warren. That is a good question, and that is a tough 
question, but it is one we are addressing.
    We are addressing it in a couple of ways. One is, as I have 
already mentioned, our FamilyWorks Programs and those case 
managers and the clinical services.
    And we are approaching it from a two-generational approach. 
We have families who have been in our housing since before the 
Plan for Transformation who have children. And so the only way 
to really break that generational cycle is with the elder of 
the household or the mother or the father and the child at the 
same time. And there is a multitude of issues, generally, that 
come with that, so we try and address all those issues 
parallel. So we do what we can to help the family prosper but 
the child to grow from an educational and job training 
standpoint. So we--
    Mr. Dold. Can you give me some sort of an idea? I recognize 
it is a daunting task, and I think we even mentioned that. But 
how has the success been thus far? Is it something that you can 
measure?
    Ms. Warren. I think we cannot measure it yet. I think we 
are on our way to measuring it, because this is one of those 
Programs that has evolved with our FamilyWorks providers.
    We actually started with a different type of service 
Program. We have been through two different types of service 
Programs and found they didn't work as well. We are now on this 
model, which we implemented a few years ago, and have found it 
works quite well because of the holistic wraparound services.
    So, with that and through numerous studies, more studies 
than I have ever seen of any housing authority, on research 
projects that have helped us to identify key issues with some 
of our populations, we have been able to tailor Programs 
specific to those needs to start beginning to break that 
generational cycle.
    And, as Crystal mentioned earlier, the clinical services is 
a key component to what we do. Because, a lot of times, we get 
in and do basic services, but we can't seem to get to the heart 
of the issue, and it turns out it is more of a clinical need 
and assessment that we have to put forth.
    Mr. Dold. I am going to move on, if I can.
    Ms. Warren. Sure.
    Mr. Dold. Crystal, thank you so much for being here, as 
well. I know it is taking your time to be here. We appreciate 
it.
    Mr. Woods, I want to just go to you for a second, if I may, 
and your comments when you said to empower you. Certainly, we 
appreciate that and the fact that you stood up and said to hold 
you accountable. Certainly, that is something that we are 
looking to try to do, in terms of having more accountability in 
general with regard to housing.
    You state that there shouldn't be a standard one-size-fits-
all for the Moving to Work contract for every qualifying public 
housing authority. How should HUD and Congress establish 
parameters to balance this flexibility with the need to hold 
the housing authorities accountable in a results-driven 
process?
    Mr. Woods. Thank you for the question.
    We have kind of wrestled with that issue. We think one 
basic standard should be whether or not you are a high 
performer. And during your annual plan, when you submit it into 
HUD, there just should be a box that says whether or not you 
are interested in becoming a Moving to Work or you are not.
    There can be other criteria, but it should not be 
competitive. That is what I think drives me crazy. When I first 
started in Winston-Salem, we applied, and we were told we were 
too small. We didn't change any number of our units, we didn't 
add any units, we didn't lose any units. The following year, we 
were too big. And so--
    Mr. Dold. Welcome to the government.
    Mr. Woods. So it is like a moving target.
    And when I tell folks that you are not giving us any more 
money, what you are giving us is the flexibility and the 
responsibility for tailoring needs based upon my locality's 
demand, I don't think that is too much to ask for.
    Mr. Dold. Certainly, I would agree.
    In the short period of time I have left, obviously, given 
the climate here, the budget restraints that we have here in 
Washington, D.C., and for Fiscal Year 2012, will the Moving to 
Work Program or flexibility allow the housing authorities to do 
more with less, in terms of Federal funds?
    Anyone?
    Mr. Russ. Yes, I think that the thing that the Moving to 
Work gives us is it allows us to look across all the Programs. 
The money is fungible. You can balance as best you can. No one 
likes to deal with less money, I have to say that, but you can 
balance the impact of that inside your organization.
    Mr. Dold. Okay. I know my time has expired. Thank you so 
much. And, again, I appreciate you taking your time and energy 
to come and testify today. So I thank the entire panel.
    Chairwoman Biggert. Thank you, Mr. Dold.
    The gentleman from Texas, Mr. Green, is recognized.
    Mr. Green. Thank you, Madam Chairwoman. And thank you for 
allowing me to be a part of the subcommittee.
    Ms. Boldon, you seem to have a holistic approach. How are 
you funded?
    Ms. Boldon. We run our contracts through a competitive 
response to an RFP put out by the Atlanta Housing Authority 
back in 2002. Before that, we were part of the development 
contract for Hope VI--Hope VI development. And so, we created 
the Program and defined it and implemented it using the Hope VI 
framework and those funds.
    Mr. Green. So you have worked with the Atlanta Housing 
Authority, is this what I am to understand?
    Ms. Boldon. Yes.
    Mr. Green. Okay.
    Now, let's assume, dear friends, that we have something 
that we will call a standard housing Program. This is one that 
is not a Moving to Work Program. And let's assume that we move 
to this Moving to Work Program.
    Would the cost for the standard program, which we will call 
``X''--would the cost to do the kind of Moving to Work Program 
that Ms. Boldon has called to our attention be ``X-plus?'' Is 
that a fair statement, that to move from a standard program to 
one with wraparound opportunities, resources, facilities, would 
it be ``X-plus?'' Or would you do this program, perform this 
program, in a stellar fashion with ``X,'' which is what you 
have for your standard program?
    And it looks like, Ms. Warren, you are leaning forward to 
answer. I read body language well. So I am going to call on 
you.
    Ms. Warren. I was just going to say that I think without 
MTW flexibility, these programs couldn't exist.
    Mr. Green. I understand. But what I need to know now is, if 
the standard Program costs ``X'' and you move from what I am 
calling a standard Program to the Moving to Work Program, will 
the cost be ``X-plus?'' Or can you do it with ``X,'' and do it 
to the extent that we have had the successes called to our 
attention?
    Mr. Russ. Can I comment on this?
    Mr. Green. Let--Ms. Warren, you are with the Chicago 
Housing Authority. You have a Moving to Work Program, right?
    Ms. Warren. Yes. I am sorry, I didn't realize you were 
asking me.
    I would say that the Program shouldn't increase because of 
the MTW name, if you will. But, again, most agencies--
    Mr. Green. Not the name--if I may?
    Ms. Warren. Okay.
    Mr. Green. Let me be clear now. We have a standard Program, 
whatever this is--
    Ms. Warren. Okay.
    Mr. Green. --and it costs ``X'' dollars to implement it. 
Just as Mr. Woods wants to move to Moving to Work, will it cost 
now ``X-plus'' to do the kinds of things that Ms. Boldon has 
called to our attention?
    Ms. Warren. The way I would look at it is that--
    Mr. Green. You know what? I appreciate you, Ms. Warren. I 
don't mean to--maybe I am not clear enough for you.
    Let's go to someone else who operates a housing authority. 
Let's see--maybe I will have to go to Ms. Boldon.
    Ms. Boldon, what are your thoughts?
    Ms. Boldon. Actually, I think that because we become so 
focused on finding partners who are, themselves, already 
funded, it probably after time ends up costing less.
    Mr. Green. Okay. But I want to know, with the funds that 
are available, will it cost more for--let's just talk about the 
Program rather than the source of funding. Will it cost ``X'' 
or ``X-plus?'' What I need to know is, does it cost more to 
move from the standard Program to the Moving to Work Program 
with the resources that you have called to our attention? Does 
this cost more money?
    Ms. Boldon. It costs ``X'' and then, in time, perhaps ``X-
minus.''
    Mr. Green. So it does not cost any more to go to a Moving 
to Work Program?
    Ms. Boldon. No.
    Mr. Green. Okay. That is your position.
    Let's go now to Mr. Fischer.
    Mr. Fischer. I think when you look at the budget data, it 
is important to recognize that MTW Programs aren't free, that 
when you hear about the things that MTW agencies are doing, 
that these do cost money. And it has been funded in different 
ways. Some of it is because MTW agencies receive, on average, 
much more generous funding formulas and also because they shift 
funds away from voucher assistance to other purposes. But those 
are the sources that have funded these things--
    Mr. Green. So your position is that it would cost ``X-
plus?''
    Mr. Fischer. ``X-plus.''
    Mr. Green. Okay.
    Now, Ms. Warren, we are back to you again now. I am not 
trying to pick on you. I genuinely want to know the answer. Is 
it going to be ``X,'' some amount of money, plus some 
additional money to do this wraparound that you talked about? 
Will it cost more money to implement? Regardless of the source, 
does it cost more?
    Ms. Warren. It costs money. And what I--so I am really 
struggling with your question because we receive a set amount 
of money, and we set our priorities based on that money, and we 
have prioritized our money to have wraparound services. And I 
have worked at a housing authority that is not an MTW agency, 
and without being an MTW agency, we couldn't afford to do what 
we do.
    Chairwoman Biggert. Okay.
    Mr. Green. Thank you, Madam Chairwoman.
    Chairwoman Biggert. I am sorry. Your time has expired.
    And I would like to ask unanimous consent to insert the 
following material into the record: an October 3, 2011, letter 
from the Columbus Metropolitan Housing Authority; an October 
11, 2011, letter from HUD Secretary Shaun Donovan; an October 
12, 2011, letter from the Public Housing Authorities Directors 
Association; a second October 12, 2011, letter from the Public 
Housing Authorities Directors Association; an October 13, 2011, 
letter from the National Affordable Housing Management 
Association; an October 13, 2011, letter from the Council of 
Large Public Housing Authorities; a second October 13, 2011, 
letter from the Council of Large Public Housing Authorities; an 
October 13, 2011, letter from the Coalition of Housing 
Industries; an October 13, 2011, letter from the National Multi 
Housing Council and the National Apartment Association; and the 
August 2010 report to Congress on the Moving to Work Program by 
the U.S. Department of Housing and Urban Development.
    Without objection, it is so ordered.
    We are required to conclude this hearing at 4 p.m., which 
is why I was rushing through that, due to the joint session of 
Congress that begins at 4 o'clock.
    So I really would like to thank all of the witnesses for 
being here. I know we could go on with more questions.
    The Chair notes that some Members may have additional 
questions for this panel which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 30 days for Members to submit written questions to these 
witnesses and to place their responses in the record.
    And I would like to thank all of you so much. This has been 
a really good panel. We really thank you so much for being 
here. And it gives us a lot of information that we really need 
to go forward with this bill. Thank you so much.
    And, with that, this hearing is adjourned.
    [Whereupon, at 4:00 p.m., the hearing was adjourned.]







                            A P P E N D I X



                            October 13, 2011






<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
